No. 19-1066

IN THE SUPREME COURT OF THE UNITED STATES

COMCAST CORPORATION, COMCAST CABLE
COMMUNICATIONS, LLC,

Petitioners,
Me

CHARLES TILLAGE, JOSEPH LOOMIS,
Respondents.

CERTIFICATE OF SERVICE

As required by Supreme Court Rule 29.5(b), I certify that the accompanying
Respondents’ Brief in Opposition has been served on this date on all parties required
to be served, by electronic (email) delivery in accordance with the Court’s Order dated
April 15, 2020, all parties having agreed to such service for documents filed prior to
the Court’s ruling on the petition for a writ of certiorari. Service has been made upon
the following:

Mark Andrew Perry

Gibson Dunn & Crutcher, LLP

1050 Connecticut Avenue, NW

Washington, DC 20036-5306

mperry@gibsondunn.com

202-887-3667

Counsel of Record for Petitioners Comcast Corporation, et al.

Executed on April 24, 2020.

Ad sf es
Scott L. ON ~

PUBLIC CITIZEN LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
202-588-1000

Counsel of Record for Respondents
